APPENDIX
Case: 20-50028, 01/29/2021, ID: 11985758, DktEntry: 20-1, Page 1 of 2

NOT FOR PUBLICATION FI LE D
JAN 29 2021

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES COURT OF APPEALS

FOR THE NINTH CIRCUIT

 

UNITED STATES OF AMERICA, No. 20-50028
Plaintiff-Appellee, D.C. No. 3:19-cr-03101-LAB-1
v.
LUIS BERNAL-VILLARREAL, MEMORANDUM*

Defendant-Appellant.

 

Appeal from the United States District Court
for the Southern District of California
Larry A. Burns, District Judge, Presiding
Submitted January 20, 2021"
Before: McKEOWN, CALLAHAN, and BRESS, Circuit Judges.
Luis Bernal-Villarreal appeals from the district court’s judgment and
challenges the 78-month sentence imposed following his guilty-plea conviction for

importation of methamphetamine in violation of 21 U.S.C. §§ 952 and 960. We

have jurisdiction under 28 U.S.C. § 1291, and we affirm.

 

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

“ The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).
Case: 20-50028, 01/29/2021, ID: 11985758, DktEntry: 20-1, Page 2 of 2

Bernal-Villarreal contends that the district court erred in denying his request
for a minor-role adjustment under U.S.S.G. § 3B1.2. He argues that the district
court failed to formulate the proper comparison group and misapplied the
Guideline to the facts of this case. We review the district court’s interpretation of
the Guidelines de novo, its factual findings for clear error, and its application of the
Guidelines for abuse of discretion. United States v. Gasca-Ruiz, 852 F.3d 1167,
1170 (9th Cir. 2017) (en banc).

The record reflects that the district court identified the correct legal standard
and considered the factors listed in the commentary to the minor-role Guideline.
See U.S.S.G. § 3B1.2 cmt. n.3(C). Contrary to Bernal-Villarreal’s contention, the
district court properly identified other likely participants in the scheme and
assessed whether Bernal-Villarreal was “substantially less culpable than the
average participant in the criminal activity.” U.S.S.G. § 3B1.2 cmt. n.3(A); United
States v. Quintero-Leyva, 823 F.3d 519, 522-23 (9th Cir. 2016). Under the totality
of the circumstances, the district court was within its discretion in concluding that
Bernal-Villarreal was not entitled to a minor-role reduction. See U.S.S.G. § 3B1.2
cmt. n.3(C). Lastly, the record does not support Bernal-Villarreal’s suggestion that
the district court’s approach to the minor-role analysis categorically precludes all
drug couriers from receiving a minor-role adjustment.

AFFIRMED.

2 20-50028
